Review of Overpayment Collections Made for the Former Aid to Families With Dependent Children Review of Aid to Families with Dependent Children Overpayment Recoveries, A-05-01-00101
Department
of Health and Human Services
"Review of Aid to Families with Dependent Children Overpayment Recoveries
by the State of Ohio," (A-05-01-00101)
June 19, 2002
Complete
Text of Report is available in PDF format (604 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Federal regulations require that states pursue Aid to Families with Dependent
Children (AFDC) overpayments made prior to October 1, 1996, and make appropriate
refunds to the Federal Government. This final report points out that, generally,
the State of Ohio had systems in place to identify and collect AFDC overpayments
but did not refund to the Federal Government its proportionate share of those
collections. In accordance with our recommendations the State agreed to refund
$17.2 million, and to improve its recovery policies and procedures to ensure
timely reporting and refunding of AFDC overpayment recoveries and modify its
automated statewide eligibility system to account for AFDC overpayment recoupments.